November 5, 2020
VIA ELECTRONIC FILING
Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543-0001
sharris@supremecourt.gov
Re:

Joseph B. Scarnati III, et al. v. Pennsylvania Democratic Party, et al. Nos.
20-574, 20-542 Motion of Donald J. Trump For President, Inc. For Leave
To Intervene As Petitioner

Dear Mr. Harris:
Petitioners Joseph B. Scarnati III, Pennsylvania Senate President Pro Tempore;
Jake Corman, Senate Majority Leader; Bryan Cutler, Speaker of the Pennsylvania House
of Representatives; and Kerry Benninghoff, Majority Leader of the Pennsylvania House
of Representatives do not object to the Motion of Donald J. Trump For President, Inc.
For Leave To Intervene As Petitioner filed in this docket on November 4, 2020.
Respectfully submitted,
JASON B. TORCHINSKY
Counsel of Record
JONATHAN P. LIENHARD
SHAWN T. SHEEHY
DENNIS W. POLIO
HOLTZMAN VOGEL
JOSEFIAK TORCHINSKY PLLC
15405 John Marshall Hwy
Haymarket, VA 20169
(540) 341-8808
(540) 341-8809
Jtorchinsky@hvjt.law

CRYSTAL H. CLARK, ESQ.
General Counsel, Senate Republican
Caucus
B-51 Main Capitol
Harrisburg, PA 17120
(717) 787-6259
cclark@pasen.gov

Counsel to Senate Leaders Petitioners
Counsel for House Leaders Petitioners on
following page

1

JAKE EVANS
(admission pending)
LAURIE WEBB DANIEL
MATTHEW FRIEDLANDER
HOLLAND & KNIGHT LLP
1180 West Peachtree Street N.W.
Suite 1800
Atlanta, Georgia 30309
Phone: 404-817-8500
Email: Jake.Evans@hklaw.com
ZACHARY M. WALLEN
(admission pending)
CHALMERS & ADAMS LLC
301 South Hills Village Drive
Suite LL200-420
Pittsburgh, Pennsylvania 15241
Phone: 412-200-0842
Email: zwallen@cpblawgroup.com
DOUGLAS CHALMERS, JR.
1300 Pennsylvania Ave. NW #190-612
Washington, DC 20004
Phone: 202-793-6977
Email: dchalmers@cpblawgroup.com
Counsel to House Leaders Petitioners

2

